1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

FLORENCE JONES,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent Appellee
-----------------------------------------------------------------------

2018-2376
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 17-105, Senior Judge Mary
J. Schoelen.
-----------------------------------------------------------------------

Decided: July 15, 2020
-----------------------------------------------------------------------

KENNETH M. CARPENTER, Law Ofﬁces of Carpenter
Chartered, Topeka, KS, for claimant-appellant.
BORISLAV KUSHNIR, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for respondent-appellee. Also represented by ETHAN P. DAVIS, ROBERT EDWARD KIRSCHMAN,
JR., LOREN MISHA PREHEIM; JONATHAN KRISCH, Y. KEN

2a
LEE, Ofﬁce of General Counsel, United States Department of Veterans Affairs, Washington, DC.
-----------------------------------------------------------------------

Before O’MALLEY, BRYSON, and HUGHES, Circuit
Judges.
BRYSON, Circuit Judge.
Appellant Florence Jones, the widow of deceased
veteran Thomas Jones, seeks to overturn a decision
of the United States Court of Appeals for Veterans
Claims (“the Veterans Court”) regarding the effective
date that the Department of Veterans Affairs (“DVA”)
assigned to beneﬁts awarded to Mr. Jones. We afﬁrm.
I
Mr. Jones served on active duty with the U.S.
Army between August 1967 and October 1974, and he
served in the Army National Guard from March 1987
to October 1990. In 1994, he filed a claim for disability
benefits for a nervous disorder and a right leg wound.
A DVA regional office granted service connection for
a right leg scar, but found that disability to be noncompensable. The regional ofﬁce denied the claim for a
nervous condition. The ofﬁce found that there was no
objective evidence in his service medical records of an
in-service stressor, i.e., a traumatic event that caused
his nervous disorder, although the service medical records were incomplete. Mr. Jones did not appeal that decision, which became ﬁnal in 1995.

3a
Several years later, on October 7, 2002, Mr.
Jones filed a request to reopen his claim, which he
characterized as a claim for post-traumatic stress disorder (“PTSD”). In the request, he asserted that he was
assaulted by muggers while he was stationed in Germany, which resulted in his developing PTSD. The regional ofﬁce denied his request for reopening on the
ground that the evidence did not establish an inservice stressor and also that certain evidence that
Mr. Jones presented was not new and material.
In a 2006 deferred rating decision, a DVA rating
ofﬁcer noted that the DVA had requested Mr. Jones’s
active duty service records in 1994, but that it was unclear whether all of those records had been obtained.
The rating ofﬁcer directed the regional ofﬁce to attempt to obtain the records. The ofﬁce received a copy
of Mr. Jones’s active duty medical records on March 2,
2006, and a copy of Mr. Jones’s entire personnel ﬁle on
June 22, 2006.
Subsequently, in an August 2008 decision, the
Board of Veterans’ Appeals granted Mr. Jones’s request
to reopen and remand his claim for further development. The Board directed the regional office to obtain additional information from two individuals with
knowledge of the assault in Germany, to obtain and
associate with the claims folder all available records
relating to the development of the claim, and to “readjudicate the claim for service connection for PTSD on
appeal in light of all pertinent evidence and legal authority.”

4a
In 2010, the regional ofﬁce granted Mr. Jones
service connection for PTSD and a schizoaffective disorder, bipolar type.1 The regional ofﬁce based its new
rating decision in part on Mr. Jones’s post-service DVA
records, including a treatment record from October
2002. But it did not rely on Mr. Jones’s active duty
records from 1967 to 1974. After initially assigning a
lower disability rating, the regional office later
awarded Mr. Jones a 100% rating effective from October 7, 2002, the date that he sought to reopen his claim.
Not fully satisﬁed with that disposition, Mr. Jones
sought to have the effective date of his award made
retroactive to June 7, 1994, the date he ﬁrst ﬁled his
claim. The Board of Veterans’ Appeals denied that request in 2014. On review, however, the Veterans Court
vacated the Board’s decision and remanded the case
to the Board for further explanation regarding certain factual findings. The Veterans Court directed
the Board to determine whether a February 1971 service treatment record and a March 1987 report from a
Kansas Army National Guard physician were associated with Mr. Jones’s claims ﬁle at the time of the regional ofﬁce’s decision on his claim in 1994.
Mr. Jones died in November 2014. His wife, appellant Florence Jones, was substituted as claimant.

1

We note that the characterization of Mr. Jones’s aff liction
evolved over course of the proceedings from “nervous disorder” to
“PTSD” to “PTSD and a schizoaffective disorder, bipolar type.”
The parties do not contend that the differences in those characterizations matter for purposes of this appeal.

5a
In a September 14, 2016, ruling, the Board determined that the March 1987 report was part of the record at the time of the regional ofﬁce’s 1994 decision.
The Board could not determine if the February 1971
service treatment records were associated with the
claims ﬁle at that time. But the Board determined that
regardless of when the February 1971 records were associated with the ﬁle, neither the March 1987 report
nor the February 1971 records “provide[d] the basis, in
all or in part, for the later reopening of the Veteran’s
claim for service connection for PTSD.”
The Board explained that the regional ofﬁce already knew in 1994 that Mr. Jones had suffered a right
leg laceration as the result of an incident in 1968. But
Mr. Jones, according to the Board, had not reported
that his PTSD was related to that laceration until October 2002.2 Previously, according to the Board, Mr.
Jones had stated only that he had been mugged, and
he had not reported suffering from associated wounds.
It was the October 2002 report, corroborated by records
showing a laceration, “that served as a basis of the
grant for the claim for service connection,” the Board
ruled. “Therefore, the additional service records documenting treatment for a laceration to his right leg did
not serve as the basis for reopening and granting the
claim in any respect.” For that reason, the Board held
2

The Veterans Court said that the Board incorrectly stated
that the claim was reopened because of assertions made by Mr.
Jones in 2002 regarding the assault against him. According to the
Veterans Court, the reopening was based on assertions made by
Mr. Jones in 2003 and a 2008 statement by a DVA physician.

6a
that the effective date provision in the pertinent regulation, 38 C.F.R. § 3.156(c)(3),3 was inapplicable in this
case; the Board therefore rejected Ms. Jones’s argument that the effective date for Mr. Jones’s PTSD claim
should be 1994 rather than 2002.
Ms. Jones appealed to the Veterans Court, which
afﬁrmed the Board’s ruling. The court noted that, consistent with the requirements of 38 C.F.R. § 3.156(c)(3),
the DVA had reconsidered Mr. Jones’s claim when the
Board remanded the claim in 2008 and the regional ofﬁce granted him disability beneﬁts in 2010. As to the
role of the February 1971 and March 1987 service records, the court upheld the Board’s determination that
those records were not part of the basis for the award
of beneﬁts, and that the Board therefore properly
found that the effective date for the award was October
7, 2002, the date on which the appellant sought to reopen his previously denied claim. The decision in Mr.
Jones’s favor, the court noted, was based on evidence
created in 2003 and 2008, which did not exist in 1994
when Mr. Jones’s claim was denied. Because section
3.156(c)(3) provides that newly associated records must
have existed at the time of the initial decision in order
to warrant an effective date relating back to the date
on which the DVA received the previously decided
claim, the court held that the Board properly rejected
Ms. Jones’s request to revise the effective date for the
3

The regulatory framework applicable to this case predates
the Veterans Appeals Improvement Modernization Act, Pub. L.
No. 115-55 (2017). The regulations implementing that Act became
effective in February 2019, and do not apply to this case.

7a
PTSD claim from 2002 to 1994.4 Ms. Jones took this
appeal challenging the effective date assigned to the
award of beneﬁts.
II
This court has appellate jurisdiction to review a
decision of the Veterans Court with respect to any interpretation of a statute or regulation relied on by
that court in making its decision. 38 U.S.C. § 7292(a).
We may not, however, review a challenge to a factual
determination or a challenge “to a law or regulation as applied to the facts of a particular case.” Id.
§ 7292(d)(2).
Ms. Jones argues that the Veterans Court misinterpreted 38 C.F.R. § 3.156(c) and relied on an incorrect
legal standard in applying that regulation. She characterizes the court as holding that section 3.156(c)(1)
did not require reconsideration of Mr. Jones’s original
claim even though it was unclear whether an ofﬁcial
service department ﬁle was in the DVA’s possession at
4

The court said that the Board misstated the law when it
stated that the subsequently associated records did not serve as
the basis for reopening the previously denied claim for PTSD. As
the government acknowledges, the relevant inquiry under 38
C.F.R. § 3.156(c)(3) is whether the newly received or associated
records were a basis for the award, not for the reopening of the
claim. The court ruled, however, that the error was harmless because the Board in its analysis fully considered the applicable provisions of section 3.156(c) and properly applied the law when it
ruled that “the award of service connection was not based in all
or in part on the association of [the] February 1971 service records
with the ﬁle.”

8a
the time of the DVA’s original decision. In addition, she
argues that the court improperly held that section
3.156(c)(3) requires that the newly discovered service
department records be the basis for both reopening
the claim under section 3.156(a) and granting the reopened claim, when in fact section 3.156(c)(3) requires
only that the award be based in part on the records
identiﬁed by section 3.156(c)(1).
The regulation at issue in this case, 38 C.F.R.
§ 3.156(c), provides as follows, in pertinent part:
(c)

Service department records.
(1) Notwithstanding any other section
in this part, at any time after VA issues a
decision on a claim, if VA receives or associates with the claims ﬁle relevant ofﬁcial
service department records that existed
and had not been associated with the
claims ﬁle when VA ﬁrst decided the
claim, VA will reconsider the claim, notwithstanding paragraph (a) of this section [which provides for reopening claims
upon the receipt of new and material evidence].
...
(3) An award made based all or in part
on the records identiﬁed by paragraph
(c)(1) of this section is effective on the
date entitlement arose or the date VA received the previously decided claim, whichever is later, or such other date as may be

9a
authorized by the provisions of this part
applicable to the previously decided claim.
A
The DVA is required to “reopen” a ﬁnally adjudicated claim under 38 C.F.R. § 3.156(a) if the claimant
submits new and material evidence in support of the
claim. “Reconsideration” of a claim is required by 38
C.F.R. § 3.156(c)(1) if the DVA receives ofﬁcial service
department records that existed but had not been associated with the claims ﬁle when the DVA ﬁrst decided the claim.
In the case of an award that results from reopening under section 3.156(a), the effective date of the
award is the date the request for reopening was made
or the date of entitlement, whichever is later. 38
U.S.C. § 5110(a); 38 C.F.R. § 3.400(q)(2); Blubaugh v.
McDonald, 773 F.3d 1310, 1313 (Fed. Cir. 2014). If an
award that results from reconsideration under section
3.156(c) was based in whole or in part on the newly obtained records, the award will be made effective on the
date the original claim was received (or the date of entitlement if that is later than the date of receipt of the
claim). 38 C.F.R. § 3.156(c)(3).
In this case, the DVA reopened Mr. Jones’s claim
in 2008 based on new and material evidence. The February 1971 service records, which were not part of the
claims ﬁle when the DVA ﬁrst denied Mr. Jones’s claim,
were associated with the claims ﬁle prior to the 2008
reopening decision. Thus, as found by the Veterans

10a
Court, the DVA considered the February 1971 service
records, together with all the other evidence of record,
during the remand proceedings before the regional ofﬁce.
Although it is undisputed that the DVA reopened
Mr. Jones’s 1994 claim, Ms. Jones contends that DVA
failed to “reconsider” that claim. But she does not point
to any evidence that the DVA failed to reconsider. Nor
does she suggest what the DVA should have done differently in order to comply with the obligation to “reconsider” the claim.
As this court explained in Blubaugh v. McDonald,
reconsideration under section 3.156(c) is meant to ensure “that a veteran is not denied beneﬁts due to an
administrative error.” 773 F.3d at 1313. The regulation
“serves to place a veteran in the position he would have
been had the VA considered the relevant service department record before the disposition of his earlier
claim.” Id. The Veterans Court has similarly described
reconsideration under section 3.156(c) as requiring the
agency to reassess its original decision in light of the
new service records, which may include the development of additional evidence. George v. Shulkin, 29 Vet.
App. 199, 205 (2018), vacated on other grounds sub
nom. George v. Wilkie, 782 F. App’x 997 (Fed. Cir. 2019);
see also Poole v. Wilkie, No. 19-0041, 2020 WL 2108261,
at *4 (Vet. App. May 4, 2020). Because the DVA considered Mr. Jones’s claim in view of the records that Ms.
Jones alleges should have been a part of the claimant’s
ﬁle from the outset, the DVA “reconsidered” the claim

11a
per 38 C.F.R. § 3.156(c)(1), as held by the Veterans
Court.5
The regional ofﬁce subsequently awarded beneﬁts.
That award was exactly what Mr. Jones sought when
he requested reopening of his initial claim. The only
remaining question was what the effective date of that
award should be.
As to that question, the Board properly applied the
standard set forth in 38 C.F.R. § 3.156(c), as held by the
Veterans Court. The Board examined whether the
award was based in whole or in part on any of the service records that existed but were not available to the
regional ofﬁce at the time of the initial decision on Mr.
Jones’s claims. The Veterans Court found that the
Board had correctly applied the law regarding the effective date for the award. We see no legal error in the
Veterans Court’s conclusion in that regard.
The outcome of that issue was not dictated by any
distinction between reopening and reconsideration,
both of which occurred here. Instead, the key issue was
whether the award was attributable in whole or in part
to the newly obtained service records, as directed by 38
C.F.R. § 3.156(c). To the extent Ms. Jones is suggesting
that “reconsideration” mandates that the effective date
of any award must necessarily be retroactive to the
5

Ms. Jones also contends the Veterans Court erred because
the Board failed to determine whether the allegedly missing records were relevant as required by 38 C.F.R. § 3.156(c)(1). But the
government has not disputed that the newly associated records
were relevant and that reconsideration was required.

12a
date of the initial claim, that argument is squarely contrary to section 3.156(c), which deﬁnes the particular
circumstances in which such a retroactive effective
date is required.
The regulations make clear that reconsideration
of the initial claim is required if any relevant ofﬁcial
service personnel records or service medical records
were not associated with the claims ﬁle at the time of
the DVA’s initial decision on the claim. The DVA assumed that was true here and conducted reconsideration after the claim was ordered reopened. The DVA
then granted an award of beneﬁts. But that award was
not predicated in any way on records that were not before the DVA at the time of the initial decision on the
claim. Thus, as the Board held, the proper effective
date was the date of the request for reopening, not the
date of the initial claim. That is consistent with the
procedure dictated by section 3.156 and does not reﬂect
a misinterpretation of the regulations by the Veterans
Court. See Blubaugh, 773 F.3d at 1314; New and Material Evidence, 70 Fed. Reg. 35388, 35389 (June 20,
2005).
B
Ms. Jones also contends that the Veterans Court
relied on an incorrect legal standard because it erroneously required that newly discovered service department records be the basis both for reopening the claim
and for awarding beneﬁts on the reopened claim. That
is not what either the Board or the Veterans Court did.

13a
Although the Board noted that Mr. Jones’s claim was
reopened based on evidence obtained after the 1994
decision denying his claim, that fact was cited simply
as contextual support for the Board’s determination
that the award of benefits was not attributable to the
pre-1994 service records that were obtained after the
denial of the claim. On the critical issue as to the evidence on which the Board based its award, the Veterans Court wrote: “The Board explained that the
February 1971 service medical record and the March
1987 service record were not the basis for reopening,
and more signiﬁcantly, the eventual grant of the appellant’s claim.”
Thus, contrary to Ms. Jones’s contention, the Veterans Court did not require that in order to trigger the
effective date provision of 38 C.F.R. § 3.156(c)(3), the
claimant had to show that both the reopening of the
claim and the award were based in part or in whole on
the records identiﬁed in section 3.156(c)(1). As the Veterans Court ruled, the Board focused its analysis on
whether the award was based on those records, and not
on whether the decision to reopen the claim was based
on those records. There was therefore no legal error in
the interpretation of section 3.156(c)(3).
Ms. Jones points to the purported error made by
the Board in referring to the service records as not
serving “as a basis for reopening the previously denied
claim,” rather than stating that those records did not
serve as a basis for reconsidering the previous denial
of Mr. Jones’s claim and awarding beneﬁts. Ms. Jones
challenges the Veterans Court’s conclusion that the

14a
Board’s error was harmless. Although the Board in its
ﬁndings of fact stated that the subsequently associated
records did not serve as the basis for reopening the previously denied claim, the Board applied the proper
standard when it analyzed whether the subsequently
associated records served, in whole or in part, as the
basis for the award. The Veterans Court acknowledged
the Board’s purported error in referring to the basis for
reopening rather than the basis for the award, but in
light of the Board’s application of the proper legal
standard in the course of its analysis, the court held
that error to be harmless.
Citing Newhouse v. Nicholson, 497 F.3d 1298 (Fed.
Cir. 2007), and Pitts v. Shinseki, 700 F.3d 1279 (Fed.
Cir. 2012), the government argues that this court lacks
jurisdiction to decide whether the Veterans Court was
correct in ﬁnding that the Board’s remark about reopening was harmless error. To review that ruling by
the Veterans Court, the government argues, would be
to review an application of law to fact, contrary to the
statutory limit on this court’s jurisdiction in appeals
from the Veterans Court under 38 U.S.C. § 7292(d)(2).
Ms. Jones responds that the Board’s misstatement
constituted an error of law. She contends that the
Board and the Veterans Court relied on the misstatement and applied the wrong legal standard in making
the effective date determination.
As explained above, we uphold the Veterans
Court’s determination that the Board applied the correct legal standard under 38 C.F.R. § 3.156(c) when it

15a
analyzed the effective date issue. What remains is
the Veterans Court’s conclusion that, given that the
Board applied the proper legal standard, the Board’s
purported mischaracterization of the test early in its
opinion was harmless. On that narrow issue, the government is correct that we lack jurisdiction to review
the Veterans Court’s ruling in light of Newhouse and
Pitts.
Because we ﬁnd no error by the Veterans Court
falling within our appellate jurisdiction, we afﬁrm the
Veterans Court’s judgment.
No costs.
AFFIRMED

16a
APPENDIX B
Designated for electronic publication only
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
No. 17-0105
FLORENCE JONES, APPELLANT,
v.
ACTING

ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS, APPELLEE
Before SCHOELEN, Judge.
MEMORANDUM DECISION

Note: Pursuant to U.S. Vet App. R. 30(a),
this action may not be cited as precedent
SCHOELEN, Judge: The appellant, Florence Jones,
through counsel, appeals the September 14, 2016,
Board of Veterans’ Appeals (Board) decision in which
the Board denied entitlement to an effective date prior
to October 7, 2002, for service correction for post-traumatic stress disorder (PTSD).1 Record of Proceedings
(R.) at 1-11. This appeal is timely, and the Court has
jurisdiction to review the Board’s decisions pursuant
to 38 U.S.C. §§ 7252(a) and 7266(a). Single-judge disposition is appropriate. See Frankel v. Derwinski, 1

1

The appellant’s late husband, Thomas E. Jones, was a veteran and is the subject of the claim on appeal. Thomas E. Jones
passed away on November 7, 2014, and the appellant was substituted as a party in December 2014. See R. at 38, 454, 458.

17a
Vet.App. 23, 25-26 (1990). For the following reasons,
the Court will afﬁrm the Board’s decision.
I.

BACKGROUND

The appellant served in the U.S. Amy from August
1967 to October 1974. R. at 179, 180, 203. In February
1971, he reported pain in his right leg caused by an
infected cut. R. at 4502. One week later, stitches were
removed from his right leg. R. at 4513.
In March 1987, a Kansas Army National Guard
physician noted a scar on the appellant’s right leg. R.
at 4417. On June 18, 1994, the appellant ﬁled a claim
for disability beneﬁts for a nervous disorder and for a
right leg wound. R. at 4656. VA denied the claim for a
nervous condition on December 27, 1994, because the
appellant’s service medical records, which were incomplete, did not contain objective evidence of a stressor.
R. at 4469. The appellant ﬁled a Notice of Disagreement on March 17, 1995. R. at 4457. On March 22,
1995, VA granted the appellant’s claim for disability
beneﬁts for a right leg scar, basing its decision on the
March 1987 examination record. R. at 4455.
On October 7, 2002, the appellant ﬁled a request
to reopen his claim for PTSD and asserted that while
he was stationed in Germany, he was assaulted by ﬁve
attackers. R. at 4371. In August 2003, the regional ofﬁce (RO) denied the appellant’s claim because the evidence submitted was not new and material. R. at 4362.
The appellant detailed the assault in an August 2003
statement. R. at 4356-57. In August 2004, the RO

18a
conﬁrmed its prior denial of the appellant’s claim R. at
3016.
In a January 2006 deferred rating decision, a VA
rating ofﬁcer noted that the appellant’s active duty service records were requested in 1994 and wrote that she
could not determine whether a response had been received. R. at 2979. The ofﬁcer ordered the RO to attempt to obtain records from the appellant’s active
duty service from August 1, 1967, to October 20, 1974.
Id. In June 2006, the VA rating ofﬁcer noted that the
National Personnel Records Center sent certain pages
from the appellant’s personnel ﬁle and ordered the RO
to send another request for the entire ﬁle. R. at 2917.
In August 2008, the Board granted the appellant’s request to reopen the claim and remanded the claim for
further development. R. at 2687-96.
In May 2010, the RO granted the appellant’s claim
for PTSD and schizoaffective disorder, bipolar type. R.
at 4730. The RO awarded ratings of 70%, effective October 7, 2002; 100%, effective December 2, 2004; and
70%, effective February 1, 2005. Id. In March 2011, the
RO determined that a clear and unmistakable error
was made in its prior evaluation of the appellant’s
PTSD and awarded a 100% rating from October 7,
2002. R. at 906. In March 2014, the Board denied the
appellant’s claim for an effective date prior to October
7, 2002. R. at 821. In January 2016, the Court vacated
the Board’s March 28, 2014, decision and remanded
the matter for the Board to determine whether the
February 1971 service medical record and the March
1987 report were associated with the appellant’s

19a
claims ﬁle at the time of the December 1994 rating decision. R. at 46-47.
On September 14, 2016, the Board issued the decision here on appeal. R. at 1-11. This appeal followed.
II.

ANALYSIS

A claimant may reopen a ﬁnal decision by submitting new and material evidence. 38 C.F.R. § 3.156(a)
(2017). The effective date for an award on a claim reopened on this basis is usually the date of receipt of
the request to reopen or the date entitlement arose,
whichever is later. 38 U.S.C. § 5110(a); 38 C.F.R.
§ 3.400(b)(ii)(B)(2)(i), (r) (2017). If VA receives relevant
ofﬁcial service department records that existed and
were not associated with the claims ﬁle when VA ﬁrst
decided the claim, VA must reconsider the claim. 38
C.F.R. § 3.156(c)(1) (2017). If an award is granted that
is based in whole or in part by such records, the award
“is effective on the date entitlement arose or the date
VA received the previously decided claim, whichever is
later.” 38 C.F.R. § 3.156(c)(iii)(3). Whether the Board
applied the correct legal standard as set forth in 38
C.F.R. § 3.156(c) is a question of law the Court reviews
de novo. See 38 U.S.C. § 7261(a)(1); Butts v. Brown, 5
Vet.App. 532, 539 (1993) (en banc).
The appellant argues that the Court must reverse
the Board’s effective-date ﬁnding because the appellant asserts that the Board relied on the incorrect legal standard in applying 38 C.F.R. § 3.156(c)(1) when
it considered whether the subsequently associated

20a
service records were the basis for reopening the previously denied claim, instead of considering whether VA
acquired relevant ofﬁcial service department records
that existed and were not associated with the ﬁle when
VA ﬁrst decided the claim. Appellant’s Brief (Br.) at 67. The Secretary admits that the Board misstated the
law, but contends that the error was harmless because
the Board later accurately explained why the February
1971 record did not serve as the basis of the grant of
beneﬁts. Secretary’s Br. at 8-10.
In its ﬁndings of fact, the Board found that the appellant’s Army National Guard service records from
March 1987 to October 1990 were of record at the time
of the December 1994 rating decision denying his
claim. R. at 3. The Board also found that records from
the appellant’s ﬁrst period of active duty service (August 1967 to October 1974) were associated with the
appellant’s claims ﬁle after the December 1994 rating
decision, but those records were not the basis for reopening his previously denied claim R. at 4.
VA must reconsider a claim where VA receives or
associates relevant ofﬁcial service department records
that existed and were not associated with the ﬁle when
VA ﬁrst decided the claim. 38 C.F.R. § 3.156(c)(1). VA
reconsidered the appellant’s claim when the Board remanded the appellant’s claim in August 2008 for further development and the RO granted him disability
benefits in May 2010. R. at 2688-96, 4730-33. Additionally, the Board found that the March 1987 service
record was contained in the evidence of record at the
time of the initial denial of the appellant’s claim in

21a
December 1994, so § 3.156(c) was not implicated as to
that document.2 R. at 7.
Where an award is granted and based partially or
completely on records identified in § 3.156(c)(1), the
effective date of the award is the date on which entitlement arose or the date on which VA received the previously denied claim, whichever is later. 38 C.F.R.
§ 3.156(c)(3). As to the February 1971 service record,
the Board found that it was unclear whether that record was associated with the appellant’s ﬁle at the time
of the December 1994 decision, but the record was not
the basis of the reopening of the appellant’s claim in
2008. R. at 8. The Board’s reopening of the appellant’s
claim in 2008 was based on lay statements submitted
by the appellant in July 2003 and September 2003 and
a June 2008 statement by a VA physician.3 R. at 2687.
The Board explained that the February 1971 service
medical record and the March 1987 service record were
2

The appellant argued in his reply brief that the Board provided no evidence for its conclusions regarding the association of
the February 1971 and March 1987 with his claims ﬁle. Appellant’s Reply Br. at 6-8. This argument was not raised in the appellant’s initial brief, and the Court declines to address the
argument. See Carbino v. West, 168 F.3d 32, 34 (Fed. Cir.1999)
(“[I]mproper or late presentation of an issue or argument . . . ordinarily should not be considered.”), aff ’g sub nom. Carbino v. Gober, 10 Vet.App. 507, 511 (1997) (declining to review argument
ﬁrst raised in appellant’s reply brief ); Tubianosa v. Derwinski, 3
Vet.App. 181, 184 (1992) (appellant “should have developed and
presented all of his arguments in his initial pleading”).
3
The Board incorrectly stated in the instant appeal that the
reopening was based on the appellant’s October 7, 2002, statement that he sustained his right leg wound when he was mugged
in service. R. at 8.

22a
not the basis for reopening, and, more signiﬁcantly, the
eventual grant of the appellant’s claim. R. at 8. Because the February 1971 and March 1987 records were
not part of the basis for the award of beneﬁts, the
Board properly found that the effective date for the
award was October 7, 2002, the date on which the appellant sought to reopen his previously denied claim.
The Court ﬁnds no error in this determination because
§ 3.156(c)(3) is only for application where the newly associated records lead VA to award a beneﬁt not granted
in the original decision. Blubaugh, 773 F.3d at 1314
(citing New and Material Evidence, 70 Fed. Reg.
35,388, 35,388 (June 20, 2005)). The reopening of the
appellant’s claim was based on records created in 2003
and 2008, which therefore did not exist in 1994, when
the appellant’s claim was denied. See R. at 8. Under
§ 3.156(c)(3), newly associated records must have existed at the time of the initial decision to warrant an
effective date relating back to the date on which entitlement arose or the date on which VA received the previously decided claim, whichever is later. 38 C.F.R.
§ 3.156(c)(3). The records on which the Board awarded
beneﬁts did not exist at the time of the 1994 decision,
so § 3.156(c)(3) is not for application. Accordingly, the
Board did not err in its application of § 3.156(c).
The Court agrees with the appellant that the
Board misstated the law when it conflated the analysis required by 38 C.F.R. § 3.156(c)(1) and (3) in its
findings of fact. R. at 3-4. However, this error was
harmless, because the Board’s analysis fully considered the applicable provisions of § 3.156(c) and

23a
correctly applied the law and the appellant has not
met his burden of showing prejudice from this error.
38 U.S.C. § 7261(b)(2) (requiring the Court to take
due account of the rule of prejudicial error); Sanders v.
Shinseki, 556 U.S. 396, 409 (2009) (holding that harmless-error analysis applies to the Court’s review of
Board decisions and that the burden is on the appellant to show that he suffered prejudice as a result of
VA error). Accordingly, the Court ﬁnds no error in the
Board’s ﬁnding that the criteria for an effective date
prior to October 7, 2002, were not met.
III.

CONCLUSION

After consideration of the appellant’s and the Secretary’s pleadings, and a review of the record, the
Board’s September 14, 2016, decision is AFFIRMED.
DATED: May 30, 2018
Copies to:
Kenneth M. Carpenter, Esq.
VA General Counsel (027)

24a
APPENDIX C
[SEAL] BOARD OF VETERANS’ APPEALS
DEPARTMENT OF
VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE APPEAL OF
FLORENCE JONES
IN THE CASE OF
THOMAS E. JONES
DOCKET NO. 11-27 683

)
)
)

DATE SEP 14 2016

On appeal from the
Department of Veterans Affairs Medical and
Regional Office Center in Wichita, Kansas
THE ISSUE
Entitlement to an effective date prior to October 7,
2002, for service connection for posttraumatic stress
disorder (PTSD).
REPRESENTATION
Appellant represented by: Kenneth M. Carpenter, Attorney
ATTORNEY FOR THE BOARD
R. Erdheim, Counsel

25a
INTRODUCTION
The Veteran served on active duty from August 1967
to October 1974, with service in the Army National
Guard from March 1987 to October 1990.
This matter is before the Board of Veterans’ Appeals
(Board) on appeal of a May 2010 rating decision issued
by a Department of Veterans Affairs (VA) Regional Ofﬁce (RO). The Veteran disagreed with the effective date
assigned by that rating decision for the award of service connection for PTSD.
In March 2014, the Board denied the claim. The Veteran died in November 2014. The appellant, the Veteran’s spouse, was substituted in an appeal of the
March 2014 Board decision to the Court of Appeals for
Veterans Claims (the Court). By a February 2016 Order, the Court vacated the March 2014 Board decision
and directed the Board to readjudicate the claim in accordance with a Memorandum Opinion.
FINDINGS OF FACT
1. By a December 1994 rating decision, the Veteran’s
claim for service connection for PTSD was denied. The
Veteran did not appeal the decision and it became ﬁnal.
2. The next formal or informal claim for service connection for PTSD was dated October 7, 2002.
3. At the time of the December 1994 rating decision,
the Veteran’s service records from his period of Army

26a
National Guard service, from March 1987 to October
1990, were of record.
4. Following the December 1994 rating decision,
records from the Veteran’s first period of active duty
service, from August 1967 to October 1974, were associated with the claims ﬁle. These subsequently associated records did not serve as a basis for reopening
the previously denied claim for service connection for
PTSD.
CONCLUSION OF LAW
The criteria for an effective date earlier than October
7, 2002, for the award of service connection for PTSD
have not been met. 38 U.S.C.A. §§ 5107, 5110 (West
2014); 38 C.F.R. §§ 3.156(c), 3.400 (2015).
REASONS AND BASES FOR
FINDINGS AND CONCLUSION
With respect to the Veteran’s claim herein, VA has met
all statutory and regulatory notice and duty to assist
provisions. See 38 U.S.C.A. §§ 5100, 5102, 5103, 5103A,
5106, 5107, 5126 (West 2014); 38 C.F.R. §§ 3.102,
3.156(a), 3.159, 3.326 (2015); see also Scott v. McDonald, 789 F.3d 1375 (Fed. Cir. 2015).
Generally, and except as otherwise provided, the effective date of an evaluation and award of pension, compensation or dependency and indemnity compensation
(DIC) based on an original claim, a claim reopened after ﬁnal disallowance, or a claim for increase will be

27a
the date of receipt of the claim or the date entitlement arose, whichever is later. 38 U.S.C.A. § 5110(a);
38 C.F.R. § 3.400.
An exception to the above exists with regard to the
later association of ofﬁcial service records with the record:
Under 38 C.F.R. § 3.156(c), if at any time after VA issues a decision on a claim, VA receives or associates
with the claims ﬁle relevant ofﬁcial service department records that existed and had not been associated
with the claims ﬁle when VA ﬁrst decided the claim,
VA will reconsider the claim, notwithstanding paragraph (a) of this section. Such records include, but are
not limited to:
(i) Service records that are related to a claimed inservice event, injury, or disease, regardless of whether
such records mention the veteran by name, as long as
the other requirements of paragraph (c) of this section
are met;
(ii) Additional service records forwarded by the Department of Defense or the service department to VA
any time after VA’s original request for service records;
and
(iii) Declassiﬁed records that could not have been obtained because the records were classiﬁed when VA decided the claim.
(2) Paragraph (c)(1) of this section does not apply to
records that VA could not have obtained when it decided the claim because the records did not exist when

28a
VA decided the claim, or because the claimant failed to
provide sufﬁcient information for VA to identify and
obtain the records from the respective service department, the Joint Services Records Research Center, or
from any other ofﬁcial source.
(3) An award made based all or in part on the records
identiﬁed by paragraph (c)(1) of this section is effective
on the date entitlement arose or the date VA received
the previously decided claim, whichever is later, or
such other date as may be authorized by the provisions
of this part applicable to the previously decided claim.
(4) A retroactive evaluation of disability resulting
from disease or injury subsequently service connected
on the basis of the new evidence from the service department must be supported adequately by medical
evidence. Where such records clearly support the assignment of a speciﬁc rating over a part or the entire
period of time involved, a retroactive evaluation will be
assigned accordingly, except as it may be affected by
the ﬁling date of the original claim.
The Board notes that changes were made to 38 C.F.R.
§ 3.156(c) in October 2006, namely the addition of 38
C.F.R. § 3.156(c)(2). However, that change does not affect the appellant’s current claim and therefore the implication of such change need not be discussed.
The Board will focus its analysis on the two speciﬁc
questions set forth by the January 2016 Memorandum
Opinion. The Opinion requested the Board to determine whether a February 1971 service treatment record and a March 1987 service treatment record were

29a
associated with the claims ﬁle at the time of the initial
December 1994 denial of the Veteran’s claim for service
connection for PTSD.
In this case, the weight of the evidence supports a ﬁnding that the March 1987 service treatment record was
associated with the record at the time of the December
1994 rating decision.
In that regard, in October 1994, the RO sent an initial
request to the service department for all of the Veteran’s service records, to include his period of active
service from August 1967 to October 1974, and his
Army National Guard service, from October 1974 “to
the present.” In October 1994, the RO received some,
but not all, of the Veteran’s service treatment records
from the service records center. It is clear that the service center did send some records, as an October 19,
1994, RO date-stamp is present on a service treatment
record folder and on the RO’s initial request.
Then, in November 1994, following receipt of this package of service records, a Deferred Rating Decision was
issued stating, in pertinent part, “we still have not received service medical records 8-1-67 to 10-2-74.” Another request was sent to the service records center,
this time just for records dated during the Veteran’s
active service, but not for records dated during his service in the Army National Guard.
In December 1994, the Veteran’s claim for service connection for PTSD was denied. The December 1994
rating decision noted “service medical records,” as evidence used. A March 1995 statement of the case on the

30a
matter stated that the “reserve service treatment records fail to show any evidence of an acquired nervous
condition.” Signiﬁcantly, also in March 1995, the Veteran was awarded service connection for a laceration
of the right leg based upon the March 1987 record referenced by the Court. There is no indication in the record that further service records were requested or
obtained in the interim time period between the issuance of the December 1994 rating decision and the
March 1995 statement of the case and rating decision.
Based upon the above, it is reasonable to conclude, and
the Board does not doubt, that the March 1987 service
record in question was of record at the time of the initial December 1994 denial.
Finally, and in further support of the above conclusion,
as part of the development of the Veteran’s later claim
to reopen the previously denied claim for service connection for PTSD, a January 2006 Deferred Rating Decision noted that not all of the service records were of
record, and speciﬁcally requested veriﬁcation from the
“National Personnel Records Center as to any records
. . . for the period of active duty dated 08-01-67 to 1020-74.” Active duty was underlined by the rating ofﬁcer. This evidence weighs heavily towards a ﬁnding
that the records from the Veteran’s other period of service, his reserve service after 1974, were already of record.
Thus, the Board concludes that the March 1987 record
was of record at the time of the December 1994 initial
denial of service connection for PTSD. Therefore, 38

31a
C.F.R. § 3.156(c) is not implicated with regard to the
March 1987 record.
With regard to the other record(s) that make reference
to the Veteran’s right leg laceration dated in February
1971, it is unclear whether those records were associated with the claims ﬁle at the time of the December
1994 initial denial. However, even if those records were
not of record at the time, subsequent association of
these records with the ﬁle does not meet the criteria
set forth under 38 C.F.R. § 3.156(c).
Speciﬁcally, these additional records did not provide
the basis, in all or in part, of the later reopening of the
Veteran’s claim for service connection for PTSD. See 38
C.F.R. § 3.156(c)(3).
For one, it was already known to the RO at the time of
the 1994 rating decision that the Veteran suffered a
laceration to the right leg “due to events that occurred
in 1968,” as documented in the March 1987 service record that was of record at the time of the initial denial.
But, most signiﬁcantly, the Veteran did not report to
the VA at any time prior to October 7, 2002, that his
PTSD was related to that laceration. Prior to October
2002, the effective date of service connection, the Veteran had stated only that he had been mugged in Germany. He had not reported suffering from associated
wounds. It was his later contention ﬁrst reported on
October 7, 2002, that he suffered from a laceration to
the right leg due to a mugging that occurred in service,
and the corroboration of the laceration to the right leg
in the service treatment records, that served as a basis

32a
of the grant for the claim for service connection. Therefore, the additional service records documenting treatment for a laceration to his right leg did not serve as
the basis for reopening and granting the claim in any
respect.
Thus 38 C.F.R. § 3.156(c)(3) does not apply in this instance, as the award of service connection was not
based in all or in part on the association of these additional February 1971 service records with the file.
Instead, the regulations under 38 C.F.R. § 3.400 are
applicable. Under those regulations, the earliest effective date possible in this instance is October 7, 2002,
the date of receipt of the claim to reopen the previously
denied claim for service connection for PTSD.
ORDER
The claim for an effective date earlier than October 7,
2002, for service connection for PTSD, is denied.
/s/

M. E. Larkin
M. E. LARKIN
Veterans Law Judge,
Board of Veterans’ Appeals

33a
APPENDIX D
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

FLORENCE JONES,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2018-2376
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 17-105, Senior Judge Mary
J. Schoelen.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING
-----------------------------------------------------------------------

Before O’MALLEY, BRYSON, and HUGHES, Circuit
Judges.
PER CURIAM.

34a
ORDER
Appellant Florence Jones ﬁled a petition for panel
rehearing.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The mandate of the court will issue on September
23, 2020.
FOR THE COURT
September 16, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Markteiner
Clerk of Court

35a
APPENDIX E
RELEVANT FEDERAL REGULATIONS
38 C.F.R. § 3.156 New and material evidence.
(a) General. A claimant may reopen a finally
adjudicated claim by submitting new and material
evidence. New evidence means existing evidence not
previously submitted to agency decisionmakers. Material evidence means existing evidence that, by itself
or when considered with previous evidence of record,
relates to an unestablished fact necessary to substantiate the claim. New and material evidence can be neither cumulative nor redundant of the evidence of
record at the time of the last prior ﬁnal denial of the
claim sought to be reopened, and must raise a reasonable possibility of substantiating the claim.
(Authority: 38 U.S.C. 501, 5103A(f ), 5108)
(b) Pending claim. New and material evidence
received prior to the expiration of the appeal period, or
prior to the appellate decision if a timely appeal has
been ﬁled (including evidence received prior to an appellate decision and referred to the agency of original
jurisdiction by the Board of Veterans Appeals without
consideration in that decision in accordance with the
provisions of §20.1304(b)(1) of this chapter), will be
considered as having been ﬁled in connection with the
claim which was pending at the beginning of the appeal period.
(Authority: 38 U.S.C. 501)

36a
(c) Service department records. (1) Notwithstanding any other section in this part, at any time after VA
issues a decision on a claim, if VA receives or associates
with the claims ﬁle relevant ofﬁcial service department records that existed and had not been associated
with the claims ﬁle when VA ﬁrst decided the claim,
VA will reconsider the claim, notwithstanding paragraph (a) of this section. Such records include, but are
not limited to:
(i) Service records that are related to a claimed
in-service event, injury, or disease, regardless of whether
such records mention the veteran by name, as long as
the other requirements of paragraph (c) of this section
are met;
(ii) Additional service records forwarded by the
Department of Defense or the service department to
VA any time after VA’s original request for service records; and
(iii) Declassiﬁed records that could not have been
obtained because the records were classiﬁed when VA
decided the claim.
(2) Paragraph (c)(1) of this section does not apply
to records that VA could not have obtained when it decided the claim because the records did not exist when
VA decided the claim, or because the claimant failed to
provide sufﬁcient information for VA to identify and
obtain the records from the respective service department, the Joint Services Records Research Center, or
from any other ofﬁcial source.

37a
(3) An award made based all or in part on the
records identiﬁed by paragraph (c)(1) of this section is
effective on the date entitlement arose or the date VA
received the previously decided claim, whichever is
later, or such other date as may be authorized by the
provisions of this part applicable to the previously decided claim.
(4) A retroactive evaluation of disability resulting from disease or injury subsequently service connected on the basis of the new evidence from the
service department must be supported adequately by
medical evidence. Where such records clearly support
the assignment of a speciﬁc rating over a part or the
entire period of time involved, a retroactive evaluation
will be assigned accordingly, except as it may be affected by the ﬁling date of the original claim.
(Authority: 38 U.S.C. 501(a))

38 C.F.R. § 3.400
*

*

*

(q) New and material evidence (§3.156) other
than service department records—(1) Received within
appeal period or prior to appellate decision. The effective date will be as though the former decision
had not been rendered. See §§20.1103, 20.1104 and
20.1304(b)(1) of this chapter.

38a
(2) Received after ﬁnal disallowance. Date of receipt of new claim or date entitlement arose, whichever
is later.
*

*

*

